No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
KAVORIS CLAYTON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Kavoris Clayton , through undersigned counsel and pursuant to SUP. CT. R. 29.2
and 28 U.S.C. ' 1746, declares that the Petition for Writ of Certiorari filed in the above-styled
matter was placed in the U.S. mail in a prepaid first class envelope, addressed to the Clerk of the
Supreme Court of the United States, on the 13th day of May, 2021, which is prior to the date the
petition for writ of certiorari is due.
MICHAEL CARUSO
Federal Public Defender

Fort Lauderdale, Florida
May 13, 2021

By:

Timothy Day
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

